        AUDIT REPORT

       Costs Claimed by the
  State of Kansas, Department of
    Wildlife and Parks, Under
   Federal Aid Grants from the
   U.S. Fish and Wildlife Service
    from July 1, 1999, through
           June 30, 2001




JANUARY 2003     Report No. 2003-E-0016
                                                                            W-GR-FWS-0002-2002

                   United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240


                                                                                   January 24, 2003


                                        Audit Report
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Audit Report on Costs Claimed by the State of Kansas Department of Wildlife
           and Parks, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from
           July 1, 1999, through June 30, 2001 (No. 2003-E-0016)

                                         Introduction
        This report presents the results of our audit of the U.S. Fish and Wildlife Service’s (FWS)
Federal Aid grants to the State of Kansas Department of Wildlife and Parks (Department) from
July 1, 1999, through June 30, 2001.

Background
        The Federal Aid in Wildlife Restoration Act, as amended (16 USC 669), and the Federal
Aid in Sport Fish Restoration Act, as amended (16 USC 777), authorize FWS to provide Federal
assistance grants to the states to enhance their sport fish and wildlife programs. The Acts
provide for FWS to reimburse the states for up to 75 percent of all eligible costs incurred under
the grants. Additionally, the Acts specify that state hunting and fishing license revenues cannot
be used for any purpose other than sport fish and wildlife activities or administration of state fish
and game agencies.

Objective and Scope

        The objective of the audit was to determine whether the Department’s expenditures of
FWS Federal Aid grant funds complied with applicable laws and regulations. The scope of our
work included evaluating the Department’s (1) accounting system and related internal controls to
determine whether the system could accurately accumulate and report grant expenditures
(2) direct and indirect expenditures claimed under the grants to determine whether they were
allowable, (3) hunting and fishing license fee collection and disbursement process to determine
whether funds were used for fish and wildlife purposes, (4) hunting and fishing license
certifications to determine whether they accurately reported license holders, and (5) purchasing
system and related internal controls. The audit included the Department’s FWS grants open
during the years ended June 30, 2000 and 2001. During this period, the Department’s recorded
grant expenditures totaled $15,956,105 (see the Appendix).

        We performed our audit under an agreement with FWS and, as applicable, in accordance
with Generally Accepted Government Auditing Standards. Accordingly, we included such tests
of records and other auditing procedures that were considered necessary under the
circumstances. As related to financial transactions, we relied on the work of the State of Kansas
Single Audit Report auditors.

                                     Results of Audit
     The results of our audit are summarized below and discussed in the sections following the
summary.

      Diversion. The Department diverted funds estimated at $85,852 for purposes other than
       fish and wildlife.

      Internal Controls. The Department needs to improve its internal controls over receipts.

      License Certification. The Department overstated its certified fishing and hunting
       license sales for calendar year 2000 by 3,344.

      Ineligible Costs. The Department owes FWS $9,679 for claimed costs incurred before
       the project period.

      In-Kind Contributions. The Department did not accurately report in-kind hours.

      Allocation of Costs. The Department did not allocate common costs based on the
       relative benefits received from each grant.

      Monitoring. The Department did not document its on-site monitoring of contracts for
       services.

      Americans with Disabilities Act. Handicapped persons could not access selected
       Departmental facilities.

A. Diversion
         In November 2001, the Department reported to FWS that funds provided to the El
Dorado Habitat Center, Kansas Department of Corrections, were used for non-fish and wildlife
purposes. The Code of Federal Regulations (50 CFR 80.4) states that revenues from license fees
paid by hunters and fishermen cannot be diverted to purposes other than administration of the
state’s fish and wildlife agency. The diversion occurred because the Department did not


                                                2
adequately monitor the activities of the Habitat Center and, as a result, initially reported diverted
funds totaling $55,119 from July 1995 through June 2001.

       The Department based the $55,119 on total expenditures of $183,730, of which an
estimated 30 percent was used for ineligible wildlife program expenditures. Subsequently, the
Department revised the estimated ineligible activities to 40 percent. Based on our audit, total
expenditures for the period should have been $214,630, which would result in a diversion of
$85,852. Department officials agreed with the revised diversion amount.

        The Department is revising its procedures to eliminate direct funding of the Habitat
Center. Specifically, the Department is executing a contract with the Center that will include a
price list for the items to be constructed by the Center.

Recommendation

       We recommend that FWS ensure that the Department’s contract with the El Dorado
Habitat Center provide the necessary oversight to preclude future diversions and that the
Department replace the diverted funds.

Department and U.S. Fish and Wildlife Service Responses

       The Department agreed with the finding and the proposed recommendation. The
Department negotiated a contract with the Department of Corrections that provides for the
purchase of products based on a pre-determined price list. In addition, Department officials
proposed the use of non-restricted funds to fund a project that has direct fish and wildlife
program benefits to replace the diverted funds.

       The FWS agreed that the revised procedures proposed by the Department will help
prevent future diversions. Further, the FWS will incorporate the Department’s proposal to
resolve this issue and implement the auditor’s recommendations into the draft corrective action
plan.

Office of Inspector General Comments

      The actions proposed by the Department are sufficient for FWS to consider the
recommendation resolved but not implemented.

B. Internal Controls
         The Department’s internal control procedures for processing receipts did not include
(1) reconciling receipts processed by the Licensing and Revenue Section with the deposit of such
receipts by the Receipts and Payroll Section, (2) reconciling the receipts received in the
mailroom with the deposit of such receipts by the Receipts and Payroll Section, and (3) limiting
distribution of receipts received through the mail to only the Receipts and Payroll Section.
According to 43 CFR, Part 12.60(b)(c), “effective control and accountability must be maintained
for all grant and subgrant cash, real and personal property, and other assets.” While we did not


                                                  3
identify any loss of funds, the potential exists for an employee to remove receipts without the
loss being identifiable.

        The Department agreed to review its controls for processing receipts and has requested
assistance from the Kansas Legislative Division of Post Audit in analyzing the adequacy of the
Department’s controls over receipts.

Recommendation

       We recommend that FWS ensure that the Department review its internal control
procedures over processing receipts and, based on the review, implement the necessary
procedures.

Department and U.S. Fish and Wildlife Service Responses

        The Department agreed with the finding and the proposed recommendation. The
Department proposed a three-phase analysis of its receipting process to determine the most
efficient and effective method to maintain adequate controls over receipts.

       The FWS agreed with the recommendation and will incorporate the Department’s
proposal into the draft corrective action plan.

Office of Inspector General Comments

      The actions proposed by the Department are sufficient for FWS to consider the
recommendation resolved but not implemented.

C. License Certification
        In its calendar year 2000 License Certification to FWS, the Department overstated fishing
licenses by 3,027 and hunting licenses by 317. In preparing the calendar year 2000 certification,
the State inadvertently excluded a formula for eliminating duplicate license holders and made
mathematical errors. The Department did not eliminate 2,727 duplicate license holders from its
sale of 5-day fishing trip licenses and overstated the combination hunting and fishing lifetime
license holders by 300 and the hunting lifetime license holders by 17. For calendar year 2000,
the Department certified hunting license holders totaling 209,626 and fishing license holders
totaling 312,990. The State is required to certify annually the number of paid fishing and
hunting license holders. The certification is used to apportion State fish and wildlife funds.
(Combination licenses are included in both the fishing and hunting license holder certification.)

        After we brought this issue to the Department’s attention, the Department provided FWS
with a revised certification for calendar year 2000 and implemented the controls necessary to
preclude future mathematical errors. As such, no recommendation was necessary.




                                                4
D. Ineligible Costs
        The Department charged $12,905 to the Statewide Fisheries Inventories and Surveys
grant (F-22-R-6) that was incurred prior to the grant’s effective date, but not provided for in the
grant agreement. Under 50 CFR 80.15(b), “costs incurred prior to the effective date of the
project [grant] agreement are allowable only when specifically provided for in a project
agreement.” The Department’s controls were not sufficient to ensure that costs incurred prior to
the effective date of a grant agreement were excluded from reimbursement requests to FWS. As
a result, we questioned $9,679 as the FWS share of the $12,905 charged to the grant.

Recommendation

        We recommend that the FWS recover $9,679 from the Department. It should be noted
that prior to the start of State fiscal year 2001, the Department implemented the controls
necessary to ensure that costs incurred outside a grant period were not charged to the grant unless
specifically approved in the grant agreement.

Department and U.S. Fish and Wildlife Service Responses

        The Department agreed with the finding and the proposed recommendation. As discussed
with FWS staff, the Department withheld reimbursement requests on a subsequent grant segment
for the questioned costs.

        The FWS agreed with the finding and recommendation. FWS also indicated that the
Department’s actions resolved and implemented the auditor’s recommendation. No further
action by the Department was required.

Office of Inspector General Comments

       The actions taken are sufficient to resolve and implement the recommendation.

E. In-Kind Contributions
        The Department’s system for accumulating and tracking volunteer hours used for the
in-kind match in the FWS hunter education grant did not accurately summarize and report total
volunteer hours. According to a Department official, unrestricted access to the database allowed
errors to occur in reported program results. As a result, the Department’s reported total
volunteer hours were not reliable. For example, the Department reported 31,672 volunteer hours
for fiscal year 2001. System queries for total volunteer hours for fiscal year 2001, however,
resulted in totals ranging from about 26,000 to 31,500 hours. The Department agreed to review
its controls over the access and summarization of data and, as necessary, implement the controls
necessary to accurately report in-kind hours.




                                                 5
Recommendation

       We recommend that FWS ensure that the Department review system procedures and
individual access controls for summarizing and reporting volunteer hours and, based on the
review, implement the changes necessary for accurate reporting.

Department and U.S. Fish and Wildlife Service Responses

       The Department agreed with the finding and the proposed recommendation. The
Department corrected the programming problem causing the hour variances, implemented a
periodic testing of the system, and established employee access controls to the data.

        The FWS agreed with the finding and recommendation. FWS also agreed with the
Department’s proposal to resolve the finding, which will be incorporated into the draft corrective
action plan.

Office of Inspector General Comments

      The actions proposed by the Department are sufficient for FWS to consider the
recommendation resolved but not implemented.

F. Allocation of Costs
        Department field personnel did not allocate common costs to individual grants in
accordance with the relative benefits received from each grant, and did not document the basis of
allocating costs, as required by Office of Management and Budget (OMB) Circular No. A-87,
“Cost Principles For State, Local and Indian Tribal Governments, Attachment A – General
Principles for Determining Allowable Costs.” Field office personnel were not told how to
properly allocate common costs and without a reasonable basis for allocation, had no assurance
that costs were allocated to grants in accordance with benefits received.

Recommendation

     We recommend that FWS ensure that the Department develops plans for allocating
common costs in accordance with OMB Circular A-87.

Department and U.S. Fish and Wildlife Service Responses

      The Department agreed with the finding and the proposed recommendation. The
Department will develop an allocation plan if the common costs are determined significant
enough to include in the grant reimbursements.

      The FWS agreed with the finding and recommendation. FWS will consider the
Department’s comments in the development of the draft corrective action plan.




                                                6
Office of Inspector General Comments

      The actions proposed by the Department are sufficient for FWS to consider the
recommendation resolved but not implemented.

G. Monitoring
        The Department has not established a formal policy requiring documentation of its
monitoring activities and therefore did not document the results of reviews of its on-site
monitoring activities. As stated in 43 CFR Part 12.80, “grantees must monitor grant and sub-
grant supported activities to assure compliance with applicable Federal Requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity.”

Recommendation

      We recommend that the FWS ensure that the Department develop a policy requiring the
documentation of its on-site monitoring activities.

Department and U.S. Fish and Wildlife Service Responses

        The Department did not agree with the finding and the proposed recommendation.
Specifically, the Department provided its monitoring procedures, which included documented
financial reviews and documented on-site reviews of large construction contracts. The
Department did indicate that for small contracts for services and research contracts, a project
leader was responsible for on-site monitoring. The on-site monitoring included assessing the
level of performance and whether they were adhering to the conditions of the contract.
However, a form documenting the monitoring was not part of the review process.

       The FWS agreed with the finding and recommendation.

Office of Inspector General Comments

         We agree that the Department does perform and document its financial reviews and have
revised our finding accordingly. During our review, we did not make a distinction regarding the
requirements for monitoring large or small contracts since that difference was not identified by
the Department or included in the criteria. We continue to believe that the Department should
have documentation available as to their monitoring activities. The documentation could include
the trip reports or daily activity reports of the individual overseeing the grants. FWS should
obtain a response from the Department which describes how it will implement the
recommendation.




                                                7
H. Americans with Disabilities Act
         During our site visits, we observed restrooms, fishing docks, and pathways that were
handicap accessible. We also noted, however, that additional work was needed to build up the
access ramps and pathways to comply with the Americans with Disabilities Act. For example, at
the Hollister Wildlife Area shooting range, the handicap-accessible restrooms could not be
accessed because of ground settling, and there were no designated handicap parking areas. As a
result, handicapped persons were unable to access the public areas without assistance.

Recommendation

         We recommend that the FWS ensure that the Department perform periodic monitoring of
its facilities to ensure the continued compliance with Americans with Disabilities Act.

Department and U.S. Fish and Wildlife Service Responses

        The Department agreed with the finding and believed that the recommendation had
already been implemented. The Department maintains a database that identifies ADA
compliance issues which is updated based on periodic field reviews by engineering section staff
and field operations personnel. The database is often used as the justification for budget
submittals to correct or fix ADA compliance issues. Deficiencies may take some years to correct
due to budget constraints.

       The FWS agreed with the finding and recommendation. Further, FWS agreed, based on
the supplemental information provided by the Department, that the Department had an adequate
process for monitoring, developing, and repairing facilities in compliance with the Americans
with Disabilities Act. FWS considered the finding resolved and no further action by the
Department was required.

Office of Inspector General Comments

       The actions taken are sufficient to resolve and implement the recommendation.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by April 28, 2003, regarding the status of the FWS Corrective Action Plan. If
you have any questions regarding this report, please contact Mr. Gary Dail, Federal Assistance
Audit Coordinator, at (703) 487-8032.




                                               8
                                                                                                                             APPENDIX

                                              Kansas Department of Wildlife and Parks
                                               Financial Schedule of Review Coverage
                                         Fiscal Years Ending June 30, 2000 and 2001
                                                                                    Grant
                                                                                  Agreement                      Total         Audit
                                                                      Grant                          Grant      Claimed       Period
                               Title                                   No.      Start     End       Amount      Amount*       Costs**
Analysis of Gray Bat & Associated Bats Community in SE Kansas       SE-2-15    6/18/98   7/31/99      $20,000      $20,000            $0
Range & Population Distribution of American Burying Beetle          E-2-16     6/24/99   9/30/99        4,808            0             0
Analysis of the Gray Bat & Associated Bats Community in SE Kansas   E-2-17     8/23/99   12/31/00      26,667       24,445        24,445
Operation & Maintenance of State Fish Hatcheries                    F-21-D-6   7/1/99    6/30/00    1,675,884    1,437,445     1,372,367
                                                                    F-21-D-7   7/1/00    6/30/01    1,891,407    1,594,597     1,483,094
Statewide Fisheries Inventories & Surveys                           F-22-R-6   7/1/99    6/30/00      909,232      708,665       711,284
                                                                    F-22-R-7   7/1/00    6/30/01      761,112      613,721       645,712
Sportfish Population Surveys in Kansas River Basins                 F-23-R-5   1/1/99    12/31/99     140,700      107,387        52,460
                                                                    F-23-R-6   1/1/00    12/31/00     140,595      118,110       106,876
                                                                    F-23-R-7   1/1/01    12/31/01     150,764      130,471        65,159
Cooperative Agreement – Drugs for Fish Production                   F-26-R-4   7/1/99    6/30/00       20,000       20,000        20,000
                                                                    F-26-R-5   7/1/00    6/30/01       20,000       20,000        20,000
Seasonal Movement & Habitat Use of Spotted Bass in SE Kansas        F-27-R-5   1/1/99    12/31/99      40,971       28,444        11,579
Streams                                                             F-27-R-6   1/23/00   12/31/00      24,517       17,885        14,109
                                                                    F-27-R-7   1/1/01    12/31/01      43,679       34,701        22,335
Statewide Fisheries Research & Surveys                              F-30-R-6   7/1/99    6/30/00       29,356       29,356        36,757
                                                                    F-30-R-7   7/1/00    6/30/01       89,197       41,481        37,588
Statewide Public Lands O&M (Fisheries)                              F-33-M-7   7/1/99    6/30/00      946,328      705,541       711,717
                                                                    F-33-M-8   7/1/00    6/30/01      809,757      769,673       785,449
Kansas Lake Fish Population Enhancement                             F-34-D-4   7/1/99    6/30/00      257,892      209,383       194,691
                                                                    F-34-D-5   7/1/00    6/30/01      252,033      248,241       236,187
Kansas Motorboat Access Development & Operation & Maintenance       F-38-B-2   1/1/99    4/30/00      835,349      450,624       403,623
                                                                    F-38-B-3   5/1/00    12/31/01   1,549,925      968,510       934,795
Commercial Purchase of Trout and Channel Catfish                    F-40-D-3   7/1/99    6/30/00      389,984      387,336       341,265
                                                                    F-40-D-4   7/1/00    6/30/01      377,838      377,806       341,288
Largemouth Bass Genetic Analysis                                    F-43-R-1   4/15/00   4/15/01       37,180       20,571        19,772
                                                                    F-43-R-2   4/16/01   5/31/02       40,373        5,506         1,087
McPherson State Fishing Lake Dam Repair – Motorboat Access (Costs   F-44-B-2   1/1/99    4/30/00       37,369       37,369             0
for segment B-2 included in segment D-1)                            F-44-D-1   1/1/99    4/30/00      250,082      250,082       175,406


                                                                       9
                                                                                                                                   APPENDIX

                                                                                       Grant
                                                                                     Agreement                        Total          Audit
                                                                       Grant                            Grant        Claimed        Period
                                  Title                                 No.        Start     End       Amount        Amount*        Costs**
 Evaluate Walleye Stocking Techniques & Population Characteristics    F-45-R-1    1/1/99    12/31/99        47,116        46,182        33,653
                                                                      F-45-R-2    1/23/00   12/31/00        46,481        37,650        28,237
                                                                      F-45-R-3    1/1/01    12/31/01        46,216        46,216        21,119
 Fishing Access to Private Waters                                     F-46-L-1    3/22/99   10/31/99       250,212       111,766        18,440
                                                                      F-46-L-2    11/1/99   10/31/00       302,988       157,981       166,688
                                                                      F-46-L-3    11/1/00   10/31/01       319,070       202,756       168,933
 Bourbon State Fishing Lake Dam Repair                                F-47-DB-1   9/26/00   3/31/02        525,321           623       180,171
                                                                      F-47-DB-2   9/26/00   3/31/02        616,681           731       211,505
 Effects of Water Willow on Age-0 Centrarchids in Kansas Reservoirs   F-48-R-1    1/1/01    12/31/01        41,436        35,253         4,032
 Planning Coordination                                                FW-10-C-6   7/30/99   6/30/00        100,086        84,505        76,699
                                                                      FW-10-C-7   7/1/00    6/30/01         97,636        85,520        78,336
 Federal Aid Coordination                                             FW-12-C-6   7/1/99    6/30/00        103,496        99,830        83,999
                                                                      FW-12-C-7   7/1/00    6/30/01         99,048        92,873        84,372
 INREACH                                                              PW-1-3      7/1/98    12/31/99       192,360       113,892         5,191
 Hunter Education                                                     W-37-E-6    7/1/99    6/30/00        360,431       360,431       363,697
                                                                      W-37-E-7    7/1/00    6/30/01        390,888       390,888       356,766
 Hunting Access to Private Lands                                      W-38-L-5    4/5/99    3/31/00      1,141,773     1,141,773     1,069,686
                                                                      W-38-L-6    4/1/00    5/31/01      1,608,772     1,433,720     1,313,206
                                                                      W-38-L-7    6/1/01    5/31/02      1,675,858     1,432,220        20,496
 Wildlife Surveys & Inventories                                       W-39-R-6    11/1/99   6/30/00        385,613       308,750       282,603
                                                                      W-39-R-7    7/1/00    6/30/01        465,322       465,322       463,398
 Statewide Public Lands Operation & Maintenance                       W-43-M-6    7/1/99    6/30/00        922,675       809,106       985,449
                                                                      W-43-M-7    7/1/00    6/30/01      1,025,341       778,314       944,564
 Water Level Management at Cheyenne Bottoms                           W-45-D-2    10/1/96   9/30/99      3,381,200     3,170,030           169
 Movements & Productivity of Lesser Prairie Chickens in SW Kansas     W-47-R-3    8/1/98    6/30/00         90,400        90,400        41,014
 Greater Prairie Chicken Population Indices Assessment                W-50-R-3    8/1/98    6/30/00         24,400        24,400        39,849
 Use of Sandsage Habitat by Lesser Prairie Chickens in SW Kansas      W-53-R-1    8/15/99   8/14/00         74,257        74,257        55,693
                                                                      W-53-R-2    8/31/00   8/30/01        108,979       104,495        78,371
 Changes in Land Use Patterns & Their Effects on Rio Grande Turkeys   W-54-R-1    1/1/01    6/30/01         22,700         5,482        10,724
                 TOTALS                                                                                $26,237,755   $21,082,716   $15,956,105

_____________________________________
* Amount shown does not include overspends or additional program income.
** Amount shown does not include indirect costs or Department adjustments.

                                                                        10
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
